APPENDIX TABLE OF CONTENTS
Opinion of the Fifth Circuit
(March 7, 2019) ................................................... 1a
Memorandum Ruling of the United States District
Court Western District Louisiana
(July 25, 2018) .................................................... 4a
Order of the United States District Court Western
District Louisiana Granting Motion to Dismiss
(December 11, 2017) ......................................... 31a
Order of the Fifth Circuit Denying Petition for
Rehearing (April 15, 2019) ............................... 33a

App.1a
OPINION OF THE FIFTH CIRCUIT
(MARCH 7, 2019)
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
________________________
SHREVEPORT CHAPTER #237 OF THE
UNITED DAUGHTERS OF THE CONFEDERACY,

Plaintiff-Appellant,
v.
CADDO PARISH COMMISSION,

Defendant-Appellee.

________________________
No. 18-30951

Appeal from the United States District Court
for the Western District of Louisiana
USDC No. 5:17-CV-1346
Before: SMITH, WIENER, and
WILLETT, Circuit Judges.
WIENER, Circuit Judge.∗
Plaintiff-Appellant Shreveport Chapter #237 of
the United Daughters of the Confederacy (“UDC”) sued
Defendant-Appellee Caddo Parish Commission (the
∗ Pursuant to 5th Cir. R. 47.5, the court has determined that this
opinion should not be published and is not precedent except
under the limited circumstances set forth in 5th Cir. R. 47.5.4.

App.2a
“Commission”) formerly, the Caddo Parish Police Jury,
and the seven, subsequently dismissed Parish commissioners individually, after the Commission notified
the UDC that its century-old Confederate Monument
would have to be removed from the Caddo Parish Courthouse Square, known as Block 23, City of Shreveport.
A courthouse has been maintained by Caddo Parish
on the same property since at least 1860. In 1903, the
UDC was given permission to erect the Confederate
Monument on the Courthouse Square. Removal of
that monument is the subject of this litigation.
The Parish Commission told the UDC in 2016 that
the monument would have to be removed from the
Courthouse Square, but did not specify the party or
parties that would have to bear the cost of removal.
The UDC filed the instant lawsuit claiming the perpetual right to maintain its Confederate Monument on
the Courthouse Square where it had remained since it
was erected more than a century earlier. The UDC
first sought injunctive relief which the district court
denied in January 2018. The court then addressed the
Parish Commission’s Motion for Summary Judgment
seeking dismissal of the UDC’s action at the core of
which lies the question whether the Caddo Parish
Commission has the authority to require removal of
the Confederate Monument from the front plat or
portion of the Caddo Parish Courthouse Square in the
heart of downtown Shreveport.
In its exhaustive and well-reasoned Memorandum
Ruling on the Commission’s summary judgment motion,
the district court concluded that the UDC had failed
to show that there were issues of material fact sufficient
to justify a trial. The court then dismissed all UDC
claims with prejudice. (We note in passing that the

App.3a
question of which party or parties must bear the
eventual cost of removing the subject monument from
the Courthouse Square remains to be determined.) For
essentially the same reasons and reasoning set forth
by the district court in its July 25, 2018 Memorandum
Ruling, we affirm its Judgment of even date, dismissing
all claims of the UDC with prejudice and at its cost.
AFFIRMED.

App.4a
MEMORANDUM RULING OF THE
UNITED STATES DISTRICT COURT
WESTERN DISTRICT LOUISIANA
(JULY 25, 2018)
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF LOUISIANA
SHREVEPORT DIVISION
________________________
SHREVEPORT CHAPTER #237 OF THE
UNITED DAUGHTERS OF THE CONFEDERACY
v.
CADDO PARISH COMMISSION
________________________
Case No. 5:17-CV-01346
Before: Robert G. JAMES, Judge.,
Mark L. HORNSBY, Magistrate Judge.
Pending before the Court is a Motion for Summary
Judgment, submitted by Defendant, the Caddo Parish
Commission, whereby Defendant seeks dismissal of all
claims asserted by Plaintiff, Shreveport Chapter #237
of the United Daughters of the Confederacy. [Doc. No.
88]. At its core, the dispute in this matter is whether
the Caddo Parish Commission can remove the Confederate Monument which sits on the front plat or portion of the Caddo Parish Courthouse Square.1 The
1 On October 19, 2017, the Caddo Parish Commission adopted
Resolution No. 69, which “authorizes the Parish Administrator,
assisted by the Parish Legal Staff, to pursue any and all legal

App.5a
answer to the question in dispute turns upon what person or entity has the right to control the property upon
which the monument sits. By its motion, Defendant
contends Plaintiff “cannot demonstrate a property
interest in the land upon which the Confederate Monument sits and therefore cannot assert First, Fifth and
Fourteenth Amendment Claims.” Id. at 1. Plaintiff opposes the motion, contending it acquired ownership of
the land underneath the monument by acquisitive
prescription. For the reasons that follow, the Court
finds the Caddo Parish Commission has the authority
to remove the monument which sits upon property
the Parish holds in trust for public use. Accordingly,
Defendant’s motion is GRANTED, and Plaintiff’s claims
are DISMISSED WITH PREJUDICE.
I.

Historical Background

On July 1, 1835, a Treaty was made with the
Caddo Indians whereby the United States would
acquire the lands which today constitute Caddo Parish.
[Doc. No. 38 at 2; see also Treaty With the Caddo, 7
Stat. 470 (1835)]. The second supplemental article of
the Treaty “reserved to Larkin Edwards . . . one section
of land to be selected out of the lands ceded to the
United States by the said nation of Indians. . . . ” Id.
The foregoing “floating reservation” given to Edwards,
which consisted of 640 acres and forms present day
downtown Shreveport, included what later became
known as Shreveport Block 23. [Doc. No. 90 at 6]. On
January 24, 1836, Larkin Edwards entered into a
promise to sell his floating grant to Angus McNeill
for $5,000.00, on the condition that the Treaty between
means to remove the monument from the Caddo Parish Courthouse
Square.” [Doc. No. 10-1 at 6].

App.6a
the United States and the Caddo “be confirmed by the
Senate of the United States. . . . ” [Doc. No. 90-1 at
14, 16].2 On January 26, 1836, the Treaty with the
Caddo was ratified by the United States Senate. See
U.S. v. Brooks, 51 U.S. 442, 448 (1850).
In May of 1836, Angus McNeil and six other persons formed the Shreve Town Company. [Doc. No. 90
at 6; Doc. No. 90-1 at 12; see also Pickett v. Brown,
18 La. Ann. 560, 561 (La. 1866); Akin v. Caddo Parish
Police Jury, 234 So.2d 203, 205 (La. App. 2 Cir.
1970)]. On May 27, 1836, McNeil sold and assigned to
each of his partners an equal interest in the Edwards’
reserve. [Doc. No. 90-1 at 12]. That Act of Sale states
the reserve “has been located on Bennett and Cane’s
Bluff on the South Bank of Red River as will more
fully appear by reference to a survey made by Grant
A. Alexander, dated on the 16th of May, 1836, which
tract or parcel of land has been laid out in lots for a
town to be called SHREVE TOWN.” [Doc. No. 90-1 at
12 (emphasis in original)]; see also Akin at 205; City
of Shreveport v. Walpole, 22 La. Ann. 526, 527 (La.
1870); Cane v. Battle, 3 La. Ann. 642, 643 (La. 1848).
On February 4, 1837, Larkin Edwards executed an
act under private signature whereby he nullified the
former conveyance of his property to McNeil, acknowledged he had previously received $5,000.00 for
the property, and then conveyed the property to the

2 See also Doc. No. 90-1 at 16 (noting the document reflecting the
agreement was incorrectly dated January 24, 1835).

App.7a
members of the Shreve Town Company.3 The document further states:
It is my intention and it is so understood
between me and the purchasers above named
to convey all the right, title, claim and pretensions which I now have by virtue of the
above recited Treaty . . . and I do hereby
warrant and will forever defend the above
sold and described tract of land to the said
purchasers, their heirs or assigns, against
the claim or claims of all and every person
or persons whomsoever. . . .
[Doc. No. 90-1 at 16]. Edwards further bound himself,
his “heirs, executors, and administrators, to pass and
sign an authentic Act of Sale of the above mentioned
tract of land before any Notary or other public officer
duly authorized to receive and record contracts in the
said State whenever I or they shall be legally required
so to do.” Id. The instrument is signed by Edwards,
McNeill, the six other members of the Shreve Town
Company, and three witnesses. Id.; see also Cane at
643. On June 27, 1839, Edwards acknowledged the
February 4, 1837 conveyance of his land to the Shreve
Town Company before the Judge and Ex officio Notary
Public for the Parish, as well as two witnesses, thereby
causing his act under private signature to have “the
same credit as an authentic act.” La. Civ. Code art.

3 Plaintiff interprets this document as Edwards nullifying the
sale to the Shreve Town Company. See e.g. Doc. 90 at 7, 8. Plaintiff’s interpretation is belied by the face of the document.

App.8a
2239 (1825); [Doc. 90-1 at 16-17].4 On December 14,
1841 (effective May 10, 1843), the Shreve Town Company was dissolved and it divided all remaining
unsold lots by judicial partition. [Doc. No. 90 at 7 (citing Pickett v. Brown, 18 La. Ann. 560, 561 (La. 1866))].
Block 23 had not been sold prior to the partition, and
“no former owners of the Shreve Town Company has
ever claimed it.” Id. at 8.
On January 18, 1838, the Parish of Caddo was
created out of Natchitoches Parish. Parish of Caddo
v. Bossier Parish, 113 So. 378, 381 (La. 1927); Akin
at 205. On March 20, 1839, the town of Shreveport
was created by the Louisiana Legislature. City of
Shreveport v. Walpole, 22 La. Ann. 526, 528 (1870);
Police Jury of Bossier v. Corporation of Shreveport, 5
La. Ann. 661 (La. 1850). Maps of “Shreve Town or the
City of Shreveport show Block 23 dedicated as the
Public Square from the late 1830s forward.” [Doc. No.
90-4 at ¶ 1]. Since at least 1846, Caddo Parish has
used block 23, City of Shreveport, for public purposes.
[Doc. Nos. 38 at 2; 90-1 at 22, 24-27, 34, 37; see also
Akin at 205]. The Caddo Parish Police Jury appropriated funds for the building of a Courthouse on Block
23 in 1856. [Doc. No. 90-1 at 27, 34]. The 1857 plat of
the City of Shreveport shows Block 23 as designated
for “Court House.” [Doc. No. 12-1 at 4; Doc. No. 12-5].
A courthouse, maintained by Caddo Parish, has sat
on the same property since at least 1860. [Doc. No.
38 at 2; Doc. No. 90-1 at 34, 37; Doc. No. 51 at 58].

4 Plaintiff contends Edwards never executed an authentic Act of
Sale. See e.g. Doc. 90 at 7, 8. As set forth above, Plaintiff’s position
is belied by the evidence.

App.9a
In 1903, the Caddo Parish Police Jury granted
permission to Plaintiff to place a Confederate Monument on the front plat of the Courthouse Square.5 [Doc.
No. 10-5]. The Minutes of the Police Jury reflecting
the agreement read in pertinent part as follows:
Mr. W.H. Wise on behalf of the Daughters of
the Confederacy made an earnest appeal for
an appropriating of $1000 for the Confederate
monument, at the same time requesting
that the monument association be given the
front plat or portion of court house square
as a site for the monument.
Moved by J.S. Young that the $1000.00 be
allowed and the front plat of court house
square be reserved for that purpose, which
motion was unanimously adopted.
[Doc. No. 10-5 at 1]. The monument has remained in
that place until present day.
II.

Summary Judgment Standard

“A party may move for summary judgment,
identifying each claim or defense—or the part of each
claim or defense—on which summary judgment is
sought.” Fed. R. Civ. P. 56(a). “The court shall grant
summary judgment if the movant shows that there is
no genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law.”
Id. “A genuine issue of material fact exists when
the evidence is such that a reasonable jury could
return a verdict for the non-moving party.” Quality
5 The Caddo Parish Police Jury was the predecessor in interest
of the Caddo Parish Commission.

App.10a

Infusion Care, Inc. v. Health Care Service Corp., 628
F.3d 725, 728 (5th Cir. 2010). As summarized by the
Fifth Circuit:
When seeking summary judgment, the
movant bears the initial responsibility of
demonstrating the absence of an issue of
material fact with respect to those issues on
which the movant bears the burden of proof
at trial. However, where the non-movant bears
the burden of proof at trial, the movant may
merely point to an absence of evidence, thus
shifting to the non-movant the burden of
demonstrating by competent summary judgment proof that there is an issue of material
fact warranting trial.

Lindsey v. Sears Roebuck and Co., 16 F.3d 616, 618
(5th Cir. 1994) (internal citations omitted).

When reviewing evidence in connection with a
motion for summary judgment, “the court must disregard all evidence favorable to the moving party that
the jury is not required to believe, and should give
credence to the evidence favoring the nonmoving party
as well as that evidence supporting the moving party
that is un-contradicted and unimpeached.” Roberts v.
Cardinal Servs., 266 F.3d 368, 373 (5th Cir. 2001); see

also Feist v. Louisiana, Dept. of Justice, Office of the
Atty. Gen., 730 F.3d 450, 452 (5th Cir. 2013) (court

must view all facts and evidence in the light most
favorable to the non-moving party). “Credibility determinations are not part of the summary judgment analysis.” Quorum Health Resources, L.L.C. v. Maverick
County Hosp. Dist., 308 F.3d 451, 458 (5th Cir.
2002). Rule 56 “mandates the entry of summary
judgment . . . against a party who fails to make a

App.11a
showing sufficient to establish the existence of an
element essential to that party’s case, and on which
that party will bear the burden of proof.” Patrick v.
Ridge, 394 F.3d 311, 315 (5th Cir. 2004) (alterations in
original) (quoting Celotex v. Catrett, 477 U.S. 317,
322 (1986)).
III. Arguments of the Parties
A. Defendant’s Arguments
Defendant contends it owns the Courthouse Square
by dedication, or alternatively, by acquisitive prescription, and therefore it has the authority to determine what monuments should be displayed in that
public space. [Doc. No. 88-1 at 3, 8]. In support of its
first position, Defendant submits: (1) “filings in
Natchitoches and Caddo Parish,” which Defendant
argues show Larkin Edwards sold his tract to the
Shreve Town Company, and therefore “maps of Shreveport showing this area dedicated to public use and
not reserved for private ownership conform to what
is evidenced by the deeds,” Id. at 3; (2) the Minutes of
the Caddo Parish Police Jury meeting held June 3,
1856, which reflect the Police Jury appropriated
$10,000.00 “to build a court house and suitable
offices for Caddo Parish” on Block 23, Id. at 4 (citing
Doc. No. 88-4 at 10, 20); (3) a 2002 title opinion,
which states maps from 1857 display the words
“Court House” at Block 23, Id. (citing Doc. No. 10-6);
(4) the Minutes of the Caddo Parish Police Jury
meeting held January 3, 1860, which authorized the
“building Court House Committee . . . to make certain
changes in the Clerk’s office in said building, . . . to
let out contract for grading the public square and
making side walks around same, and also to have a

App.12a
cistern constructed and gas fixtures put up in said
Court House.” Id. (citing Doc. No. 88-4 at 20); and (5)
the testimony of Plaintiff’s expert, Dr. Gary Joiner,
who testified courthouses have sat on the property
since the 1850s, and the square has consistently been
maintained by Caddo Parish since that time. Id.
(citing Doc. No. 51 at 58-59). Defendant argues this
evidence shows Block 23 was dedicated to public use
by the Shreve Town Company, and Block 23 has been
used for public purposes since at least the 1860s.
In support of its alternative position—that it
acquired Block 23 by acquisitive prescription—Defendant argues, “Based on the fact that the public square
was platted and publicly dedicated by Shreve Town
Company and that Shreve Town Company bought the
reservation from Larkin Edwards and thus wholly
owned it, the Parish had just title and good faith as
stated in the 1846 minutes.” [Doc. No. 88-1 at 5].
Accordingly, Defendant contends it acquired the property by prescription of ten years in 1856. In the further alternative, Defendant contends it acquired Block
23 by prescription of thirty years in 1890. Id. at 5-6.
B. Plaintiff’s Arguments
Plaintiff contends it acquired the plot of ground
upon which the monument sits by acquisitive prescription, and therefore the Caddo Parish Commission cannot order removal of the monument (which
Plaintiff also contends it owns) from Plaintiff’s private
property. While Plaintiff concedes Block 23 was originally dedicated to public use, it argues Defendant
impliedly revoked the dedication by granting Plaintiff
permission to place the monument on the front plat
of the Courthouse Square. [See e.g. Doc. 90-4 at 3]. In

App.13a
support of this argument, Plaintiff submits the affidavit of its “expert Mr. Wayne Webb, attorney at law,”
who “reviewed conveyance records for Caddo Parish,
Louisiana, for the purpose of determining the existence of any document purporting to convey any
sort of an ownership interest of the . . . [plot of land
situated within Block 23] into the Shreveport Chapter
237 of the Daughters of the Confederacy . . . .” [Doc.
No. 90 at 16; Doc. No. 99-5 at 4]. According to Mr.
Webb, he found no evidence conveying any type of
interest in the property to Plaintiff in the Caddo
Parish conveyance records. Id. However, after reviewing a matter “off record,” namely the 1903 Minutes of
the Caddo Parish Police Jury, Mr. Webb opined as
follows:
Based upon the foregoing, I am of the opinion
that the action of the Caddo Parish Police
Jury in 1903, in reserving a plot of ground
for the Daughters of the Confederacy, may
have taken the property out of the purview
of use as a public square as set forth in the
original plat filing, because use of the plot of
ground was then for the endeavors of a
private entity. Pursuant to R.S. 33:4178, the
action of the police jury may have been tantamount to a revocation of the dedication,
which would have caused the ownership to
revert back to those who dedicated the land.
Under those circumstances, the Daughters of
the Confederacy would have been occupying
the respective plot without the permission of
the true owners, thereby causing acquisitive
prescription to run in favor the [sic] Daughters of the Confederacy.

App.14a
[Doc. No. 99-5 at 6].6
Plaintiff notes it “has possessed” the property
underneath the monument since 1903, when the Caddo
Parish Police Jury “donated $1,000.00 for the construction of the Confederate Monument and gave a
plot of land ‘in perpetuity’ to [Plaintiff].”7 [Doc. No.
90 at 3]. According to Plaintiff, although it “treated
the Caddo Parish Police Jury’s actions as an oral
donation,” it now concedes “the minutes are not an
actual written conveyance,” but argues they constitute
“evidence that the Defendant had relinquished the
dedication of said site for the public use for the
Caddo Parish Courthouse for the Plaintiff’s private
use.” Id. at 4. From the forgoing, Plaintiff concludes,
“[t]here is no evidence that Caddo Parish owns Shreveport Block 23 in its entirety,” and Plaintiff “acquired
ownership of the land underneath the Confederate
Monument via acquisitive prescription. . . . ” [Doc. No.
90 at 2, 11].
Plaintiff additionally attacks Defendant’s title,
arguing Defendant did not acquire Block 23 by
6 La. R.S. 33:4718 provides that “parish governing authorities . . .
may revoke and set aside the dedication of all parks, public
squares or plots dedicated to public use . . . , when such parks,
public squares or plots have been abandoned or are no longer
needed for public purposes.” Id. at § 4718(A). The statute further
provides, “Upon such revocation, the title to the land covered by
and embraced in said parks, public squares or plots, shall revert
to the person or persons who were the owners of such land at
the time of the dedication, their heirs, successors or assigns.” Id.
at § 4718(B). The Court notes La. R.S. 33:4718 was not passed
until 1958, subsequent to the action of the Police Jury allowing
Plaintiff to place the monument on the front plat of the Courthouse.
7 The words “in perpetuity” appear nowhere in the 1903 Minutes.

App.15a
acquisitive prescription. According to Plaintiff, although Larkin Edwards “sold his reservation to Angus
McNeil and seven other men who later formed the
Shreve Town Company in 1836,” on March 14, 1840,
Larkin Edwards signed a document which declared that
sale to be null and void.” Id. at 11-12. According to
Plaintiff, Edwards died in 1841 “without signing an
authentic Act of Sale” for the property, “and therefore,
he never conveyed Shreveport Block 23 to the [sic]
Angus McNeil and the other owners of the Shreve Town
Company.”8 Id. at 12. Based upon the forgoing characterization of the historical background, Plaintiff
contends Defendant could not have acquired Block 23
by prescription of ten years, because it “does not
possess a just title (i.e. legal and transferable title),”
nor was Defendant’s possession in good faith. Id.
Plaintiff further contends Defendant did not
acquire Block 23 by prescription of thirty years, because “[t]he possession on which this prescription is
founded must be continuous and uninterrupted during
all the time; it must be public and unequivocal, and
under the title of owner.”9 [Doc. No. 90 at 12-13
8 As previously noted, this is not a reasonable interpretation of
the document cited by Plaintiff. Rather, that document shows
on February 4, 1837, Edwards nullified his sale to McNeil, and
then conveyed the property to the members of the Shreve Town
Company by act under private signature. On June 27, 1839, he
acknowledged his signature by notarial act. [Doc. No. 90-1 at 16-17].
9 Plaintiff then states, “And since the Caddo Parish Police Jury
is a parochial corporation, it must appoint a natural person to
accept possession of Shreveport Block 23.” Id. at 13. Plaintiff
cites La. Civ. Code art. 439 (1870) for this position. However,
article 439 does not support Plaintiff’s argument. At oral argument, counsel cited the Court to La. Civ. Code art. 437 (1825)
for this argument. This article likewise does not support Plain-

App.16a
(quoting La. Civ. Code art. 3500 (1870))]. According
to this argument, Defendant did not have “continuous
and uninterrupted” possession, because “not one version of the Caddo Parish Police Juries had been in existence for the thirty (30) years needed for acquisitive
prescription.” Id. at 13. As argued by Plaintiff, the
enactment of various versions of the Louisiana State
Constitution resulted in the dissolution of the prior
governing authorities of Caddo Parish and the creation of new governing bodies, and therefore, “there
was an interruption of precarious possession and no
tacking.” [Doc. No. 90 at 14]. Plaintiff concludes, “Thus,
without neither possession nor evidence that it did
not have permission of the actual owner of Shreveport
Block 23 prescription had never commenced.” Id. at
13. In support of this argument, Plaintiff cites one
case having no relevance to this issue10, as well as
various articles of various versions of the Louisiana
State Constitution, none of which support this position and will not be addressed further. [Doc. No. 90
at 13-14].
tiff’s argument, as it applies to “[c]orporations unauthorized by
law or by an act of the legislature.” Id. Plaintiff has provided no
evidence that the Caddo Parish Police Jury was an unlawful
corporation or was not authorized by the legislature. Further,
this argument does not appear to comport with the jurisprudence of Louisiana. See e.g. City of New Orleans v. Carrollton
Land Co., 60 So.2d 695, 698 (La. 1913) (formal dedication or
formal acceptance by town authorities is neither necessary nor
practicable); Walpole, 22 La. Ann. at 529 (“The objection of the
defendant that no acceptance of the dedication is shown, and
that it is incumbent upon the plaintiff to show such acceptance,
is without merit. It is well settled, by repeated decisions, that a
formal acceptance is not necessary.”)
10 See New York Belting and Packing Company v. T.W. Jones, 22
La. Ann. 530 (La. 1866).

App.17a
IV. Pertinent Jurisprudence
One of the earlier cases addressing the formation
of the town of Shreveport is Pickett v. Brown, 18 La.
Ann. 560 (La. 1866). There, plaintiffs sued the City of
Shreveport to recover three town lots they contended
the city was illegally possessing. The lots were located
between the river and the nearest street running along
the river, in an area “constituting what is commonly
called an ‘open space.’” Id. at 561. The city contended
the property belonged to it for public uses since incorporation of the city on March 20, 1839, having been
dedicated to the city at that time by the company
formed by Angus McNeil and others who laid out the
town. Id. at 561. The plaintiffs contended the city
had no title to the property, the particular lots sued
upon were not necessary for public use, and the city
had never appropriated the lots. Id. The Supreme Court
set forth the law of dedication as follows:
That the dedication of property for public
uses may be inferred from facts and circumstances, which leave no reasonable doubt
upon the mind of the intention of the owner
to make such a disposition, we think there
can be no question.
[...]
. . . [T]here is no particular form necessary
to a dedication of land to public use. All that
is required is the assent of the owner of the
land, and the fact of its being used for the
purposes intended.
. . . [N]either a deed nor a grantee is necessary in the matter of dedication of property
to public uses.

App.18a

Id. at 562, 563 (internal quotation marks omitted)
(citing City of Cincinnati v. The Lessee of White,
31 U.S. 431, 432 (1832); Municipality No. 2 v. Orleans
Cotton Press, 18 La. 122 (La. 1841)).11
In examining title to the disputed property, the
Supreme Court noted when the Shreve Town Company
was dissolved in 1843, all remaining unsold lots were
divided by judicial partition among each of the coproprietors. Id. at 561. The Court noted the partition
was “made with great care and exactness,” and “much
care had been taken to ascertain all the unsold property
belonging to the company within the incorporated limits
of the city. . . . ” Id. at 561, 562. The Court found no
disposition was made of the property at issue in the
partition, the company had never exercised any act of
ownership over the disputed property, and no evidence
showed the company had ever intended to assert a claim
over the property. Id. at 562. The court ultimately
concluded the Shreve Town Company “intended to
dedicate the public place in that town lying between
Commerce street and the river, to public uses,” as “[a]ll
conditions required by the authorities we have noticed,
to render a dedication complete, seem to us to be
fulfilled in this case.” Id. at 563. Accordingly, it decreed
the property in dispute belonged to the city for public
uses. Id.12
11 The requirements of an implied dedication are the same
under current law. Such a dedication “requires an unequivocally
manifested intent to dedicate on the part of the owner and an
equally clear intent to accept on the part of the public.” Cenac v.
Public Access Water Rights Ass’n, 851 So.2d 1006, 1011 (La. 2003).
12 See also Walpole, 22 La. Ann. 526 (finding Block 70, lying in
the open space between Commerce Street and the river, was
dedicated to the city for public use by the founders of the city,

App.19a
In Akin v. Caddo Parish Police Jury, 234 So.2d
203 (La. App. 2 Cir. 1970), residents of the City of
Shreveport and the Parish of Caddo sought to enjoin
the Caddo Parish Policy Jury from proceeding with
plans to enlarge the parish courthouse and removing
certain live oak trees encircling same. The court
found the following historical facts were established
at the trial of the case: In 1836, the Shreve Town
Company had a map or plat recorded of present day
downtown Shreveport. Id. at 205. The property was
divided into sixty or more blocks, each of which was
subdivided into lots “except Block 23, designated on
the plat as a ‘public square,’ which was left intact.”
Id. At that time, the area was a part of Natchitoches
Parish, out of which Caddo Parish was created in 1838.
The town of Shreveport was created in 1839, and its
boundaries were “coextensive with the boundaries
shown on the plat of 1836.” Id. In 1846, a jail was
erected by the Caddo Parish Police Jury on the
southwest corner of Block 23, and “[s]ince that time
the square has been continuously under the administration of the Caddo Parish Police Jury. . . . ” Id. A
courthouse was erected by the parish upon the square
in 1860, and there has been a courthouse on that
block since that time. “In addition to serving as a
site for a courthouse, the ‘square’ is frequently and
and the fact that no acceptance of the dedication was shown
was irrelevant, as formal acceptance is not required; property
dedicated to public use is inalienable); McNeil, 34 La. Ann. 1090
(finding lots within the “open space” of the City of Shreveport
had been dedicated to public use by the Shreve Town Company
by virtue of the fact it was not divided among the owners of the
corporation by the judicial partition, and “title thereto was vested
in the municipal corporation for such purposes, [which] ought
not lightly to be disturbed, even if they were erroneous. . . . ”).

App.20a
incidentally used, and has been so used for many
years, for public meetings of various kinds—political,
patriotic, and otherwise, such as sports pep rallies,
art shows, concerts, et cetera. These used [sic] have
not interfered with the use of the square or the
courthouse.” Id. at 205.
The court then found the exceptions of no right
of action and no cause of action should have been
sustained, absent any allegation or showing that
plaintiffs had any interest different from that of the
public generally. However, because the matter involved
“an action affecting a public interest, that is, the
orderly administration of an important local governmental function,” the court addressed the merits of the
issues presented as follows:
The courthouse square, known as Block 23,
constitutes public property. A primary issue,
therefore, relates to a question of its control,
administration, and management. Obviously,
public property, to serve the purposes intended for it, must be under the jurisdiction of
some authority. When the plat for the town
site was prepared and filed for record, the
police jury governing the area was the only
local governing authority in existence. . . .
[...]
The Caddo Parish Police Jury has, as a fact,
exercised jurisdiction and control over and
has administered the ‘public square’ for 124
years as a location for public buildings. . . .
The title of the property having been dedicated to the public, the governing authority,
which, at the time, was the police jury rep-

App.21a
resenting the parish, continues in the public
represented by the parish and not in a lesser
segment of the public. . . . To hold otherwise
would be to deprive a larger segment of the
public of the use and enjoyment of the property and to place it in only a smaller segment of the public represented by the municipality.
[...]
Thus, it must be concluded . . . that the police
jury has jurisdiction and control over and
has actual possession and administration of
the property; that such administration and
control are exercised in the interest of and
for the service and benefit of the public in
compliance with its obligation to provide
and maintain a courthouse for the parish
[under La. R.S. 33:4713].

Id. at 208-09 (citations omitted).
In Police Jury of Plaquemines v. Foulhouze, 30
La. Ann. 64 (La. 1878), certain judgment creditors of
the Parish of Plaquemines issued execution, seized
and advertised for sale a tract of land held by the
parish. Id. at 65. The property had previously been
donated “to the inhabitants of the parish of Plaquemines” by an inter vivos act of donation in 1846, and
it was accepted on behalf of the citizens by the
Plaquemines Police Jury. Id. The donation was made
“on the express condition that said inhabitants shall
build and erect the Court House of the aforesaid
parish” on the property. Id. Thereafter, a courthouse
and jail were erected on a portion of the tract fronting
the Mississippi river. In 1875, the parish leased the

App.22a
rear portion of the tract to a rice farmer. It was this
rear portion which was seized by the judgment creditors. Id. The parish obtained an injunction against the
sale “on the ground that the same had been dedicated
to public use and was ‘hors de commerce.’” Id. at 66.
On appeal, the Louisiana Supreme Court found the
property was dedicated to public use, and therefore
could “not be the subject of private ownership.” Id.
Such property “is out of commerce, and not liable to
seizure.” Id. Such property is held by a governmental
body in trust for the public use, and the governing
body has no authority “to dispose of property of a
public nature, in violation of the trusts upon which it
is held, nor of the public squares, streets or commons.”
Id. The court then found:
We see no significance whatever in the fact
that the whole of the donated tract is not in
actual public use. It suffices that the public
has a right to use. Nor does the fact that the
part seized was cultivated in rice in 1875,
under lease from the parish, operate to
deprive the public of its rights of use. We
have just seen that the parish cannot directly
or indirectly divest the property of its public
character. How much of said property is or
is not needed for the use of the public, is
not, in its nature, a judicial question. It
suffices for us to know that the public has a
right to the use of the whole, and, for aught
we can know, may have some day necessity
for its use. Fifty years hence the Court
House and jail may be, by encroachments of
the river, driven to what is now the rear
arpent of the tract. But these are considera-

App.23a
tions with which this Court has nothing to
do. We must ascertain and enforce the rights
of parties—which are governed by the law
and not by the river.

Id. at 67 (emphasis in original); see also Cook v. City
of Opelousas, 4 La. App. 300, 303-04 (La. App. 1 Cir.

1925) (open public use of greater part of length of
dedicated street, “like corporeal possession of a part
of a tract of land, under title calling for an entire
tract, constitutes acceptance for its entire length as
indicated on the plan by which it was created.”)
IV. Analysis
A. As Property Dedicated to Public Use, the Caddo
Parish Commission Has the Right to Control,
Administer and Manage Block 23

The parties and this Court agree Block 23 was
impliedly dedicated to public use when the town of
Shreveport was first laid out by the Shreve Town
Company, thereby resulting in a servitude of public
use. [Doc. No. 90-4 at 1, 3; Doc. No. 90 at 2; see also
Pickett, 18 La. Ann. at 562; Walpole, 22 La. Ann. at
527-28; Cane, 3 La. Ann. at 643]. At that time, the
only governing authority in the area was the parish
police jury. Akin at 205, 208. Accordingly, the Court
finds Block 23 was to be held by the governing body
of Caddo Parish in trust for public use.
Once the dedication of Block 23 as a public square
was accepted by public use, Block 23 became a public
thing. See LA. CIV. CODE art. 450; Coliseum Square
Ass’n v. City of New Orleans, 544 So.2d 351, 353 (La.
1989). “Public things, being insusceptible of private
ownership, are inalienable, imprescriptible and exempt

App.24a
from seizure.” Band v. Audubon Park Com’n, 936 So.2d
841, 845 (La. App. 4 Cir. 2006); see also Coliseum
Square at 353 (“Such property, held as a public trust,
is inalienable while it is being used by the public”).
The fact that the Parish Police Jury allowed Plaintiff
to place a monument in front of the courthouse does
not operate to deprive the public of its rights of use.
See e.g. Pickett at 562 (whether certain portion of
property dedicated to public was or was not necessary
for public use was irrelevant; “[i]f the original owners
had dedicated the entire open space for public uses, it
is not material to inquire to what uses it is subjected”);
Foulhouze at 67 (finding “no significance whatever in
the fact that the whole of the donated tract is not in
actual public use”); Coliseum Square at 354 (“A thing
may be in use without being necessary in the sense of
being essential or indispensable.”); Cook at 303-04.
Accordingly, the Court finds no part of Block 23 is
susceptible of private ownership, absent a revocation
of the dedication. McNeil v. Hicks, 34 La. Ann. 1090,
1093 (La. 1882).13
Prior to passage of La. R.S. 33:4718 in 1958, municipalities and parish governmental authorities could
not transfer public property for private purposes
absent express legislative authority from the State.

See e.g. City of New Orleans v. Louisiana Soc. For

13 Because Plaintiff had permission of the Parish of Caddo to
place the Confederate Monument on the front plat of the
Courthouse Square, to the extent Plaintiff gained any interest
in the plot of ground upon which the monument was placed, the
Court finds Plaintiff gained precarious possession of same. See
La. Civ. Code art. 3437 (2018); Id. at comment (a). Precarious
possessors cannot acquire property by acquisitive prescription.
La. Civ. Code art. 3510 (1870).

App.25a

Prevention of Cruelty to Animals, 85 So.2d 503, 50708 (La. 1955); see also La. Const. art. 58 (1858). In

other words, a revocation of a dedication of property
to public use required express permission of the
sovereign. McNeil at 1093. Further, an implied dedication was terminable only “by formal revocation,
relocation or abandonment.” Collins v. Zander, 61
So.2d 897, 899 (La. App. Orleans 1952). As there is
no evidence in the record showing the Caddo Parish
Police Jury obtained express legislative permission to
transfer the plot of ground to Plaintiff at any time
prior to erection of the monument, and because there
is no evidence in the record showing any “formal
revocation, relocation or abandonment” of Block 23
as a public square, the Court finds the actions of
Defendant, in reserving the front plot of ground for
placement of a monument, did not constitute a revocation of the dedication. Because the Court finds the
Parish did not revoke the dedication of Block 23,
Plaintiff could not, as a matter of law, acquire the
property at issue by acquisitive Prescription. Accordingly, Plaintiff has no private property interest in the
plot of ground upon which the Confederate Monument sits.14
14 Indeed, the Court finds the 1903 Minutes of the Caddo Parish
Police Jury are more indicative of a dedication of the monument
to the Parish in its public capacity, than they are of some type
of conveyance of a property interest to Plaintiff. See e.g.
McGraw v. City of New Orleans, 215 So.3d 319, 332 (La. App. 4
Cir. 2017) (“We do not hesitate to conclude that the monuments
at issue are public things given that the undisputed evidence
establishes clearly that they were erected on public property,
owned by the City in its public capacity, and subsequently
dedicated to the public use.”); State ex rel. Singlemann v.
Morrison, 57 So.2d 238, 241 (La. App. Orleans 1952) (“The doctrine

App.26a
B. Constitutional Claims
Plaintiff asserts its rights under the First, Fifth
and Fourteenth Amendments to the United States
Constitution were violated by Defendant’s passage of
Resolution No. 69. [Doc. No. 58 at 2]. Defendant contends because the property was dedicated to public
use, it holds the property upon which the Confederate
Monument sits in trust for the public, and therefore
Plaintiff’s Constitutional claims fail. [Doc. No. 88-1
at 8].
According to Plaintiff, Resolution No. 69 “constitutes an unconstitutional taking of Plaintiff’s property in violation of the Fifth Amendment,” because
Defendant has not provided Plaintiff with “just compensation.” [Doc. 90 at 24]. The Fifth Amendment,
made applicable to the states through the Fourteenth
Amendment, provides that “private property” shall
not “be taken for public use, without just compensation.”
Chicago B. & Q.R. Co. v. Chicago, 166 U.S. 226, 239
(1897); Lingle v. Chevron USA, Inc., 544 U.S. 528,
536 (1995). It is well-settled that the framework of
state law governs “what is a property interest compensable under the Fifth Amendment.” U.S. v. 131.68
Acres of Land, 695 F.2d 872, 875 (5th Cir. 1983); Fee
v. Herndon, 900 F.2d 804, 810 (5th Cir. 1990); Hatfield v. Scott, 306 F.3d 223, 226 (5th Cir. 2002). Insofar
as Plaintiff alleges its Fifth Amendment rights were
is now generally recognized that the buildings, monuments and
other public ornaments, reasonable use of public money for
memorial designed to inspire sentiments of patriotism or of
respect for memory of worthy individuals is for a public purpose”). While Defendant briefly raised this argument in its
earlier briefing [see Doc. 38 at 15], it has not pursued that argument in this motion.

App.27a
violated by a “taking” of the ground upon which the
monument sits, for the reasons set forth above, the
Court finds Plaintiff has not met its burden of
showing that it had any private property interest in
the front plat of the courthouse. See e.g. Dorn v.
International Broth. of Elec. Workers, 211 F.3d 938,
948 (5th Cir. 2000).
Plaintiff further appears to assert an unconstitutional “taking” with regard to the anticipated removal
of the monument itself, when it argues, “Defendants’
Resolution No. 69 does not provide for any funding to
compensate Plaintiff for the cost of removal, damages
to the Confederate Monument, and proper storage of
the said monument,” and further argues because the
resolution “does not provide for taxpayers’ monies to
pay for the removal,” Plaintiff will be required “to
bear the costs of removal, storage, and damages to the
Confederate Monument.” [Doc. No. 90 at 23]. Assuming the Confederate Monument remains Plaintiff’s
private property, the Court finds this claim fails for
the same reason provided in its Ruling on Plaintiff’s
application for a preliminary injunction–namely, that
Plaintiff has presented no evidence that the Commission intends to compel it to bear the burden and cost
of removal. Accordingly, the Court finds Plaintiff’s
claim under the Fifth Amendment fails.
Plaintiff argues its rights under the Fourteenth
Amendment were violated, because “no procedural
safeguards were in place to allow the Plaintiff to contest the removal of the Confederate Monument.”
[Doc. No. 90 at 22]. The Fourteenth Amendment provides that no state shall “deprive any person of life,
liberty, or property, without due process of law.” To
have a protected property interest within the con-

App.28a
tours of the Fourteenth Amendment, one must have
some legitimate claim of entitlement to it, and “the
sufficiency of the claim of entitlement must be decided
by reference to state law.” Blackburn v. Marshall, 42
F.3d 925, 936 (5th Cir. 1995) (quoting Bishop v. Wood,
426 U.S. 341, 344 (1976)). As discussed above, Plaintiff
has failed to show it has a legitimate property interest
sufficient to require Fourteenth Amendment protection.
Nevertheless, even assuming Plaintiff did have a sufficient property interest, the Fourteenth Amendment
requires that states follow fair procedures before
depriving citizens of their property. Ordinarily, this
requires that the affected individual be given notice
of the anticipated deprivation and a fair opportunity
to challenge its propriety. See Mullane v. Central
Hanover Bank & Trust Co., 339 U.S. 306, 313 (1950).
In this matter, there was a public hearing held prior
to the passage of Resolution 69. [Doc. No. 12-3]. Further, the president of Shreveport Chapter #237 of the
United Daughters of the Confederacy was a member of
the advisory committee which studied this issue for
over a year prior to the passage of the Resolution.
[Doc. No. 12-6 at 13-14]. Accordingly, the Court finds
Plaintiff had adequate notice and opportunity to be
heard on the issue of removing the monument.
With regard to the First Amendment, Plaintiff
asserts: “Defendants restricted the Plaintiff’s First
Amendment rights on the Plaintiff’s privately owned
property without providing . . . an alternative channel
for communication of the information” [Doc. No. 90 at
17]; Defendant’s regulation of Plaintiff’s First Amendment rights from its’ [sic] own private property . . .
did not leave Plaintiff an ample alternative means to
communicate its’ [sic] message since there can only

App.29a
be one location for the spot where the last flag flew
from a Confederate capital [sic]” Id. at 18; and “Defendants’ decision does not provide for any alternative for
the Plaintiff to express either its’ [sic] speech or
beliefs.” Id. at 19. As previously discussed, the Court
finds Plaintiff has no protected property interest in
the plat of ground upon which the monument sits.
To the extent Plaintiff argues its free speech
rights have been violated by removal of the monument
on property dedicated to public use, the Court likewise
finds Plaintiff’s claim fails. “[T]he placement of a permanent monument in a public park is best viewed as
a form of government speech and is therefore not
subject to scrutiny under the Free Speech Clause.”
Pleasant Grove City, Utah v. Summum, 555 U.S. 460,
464 (2009). “A government entity has the right to
speak for itself,” and it is “entitled to say what it
wishes.” Id. at 467 (internal quotation marks omitted).
As stated in State ex rel. Singelmann v. Morrison:
No individual or private association has the
right to erect a memorial on public property
without the consent of the governing authorities. . . .
If any community in Louisiana has too many
heroes to honor, or if memorial plaques should
become plagues on its public buildings, the
local authority could require their removal
and prohibit their future erection.
57 So.2d 238, 244-45 (La. App. Orleans 1952). Because
the placement of permanent monuments in public
parks is not subject to scrutiny under the First
Amendment, and because Plaintiff makes no argument
that the Commission has made any effort to abridge

App.30a
any traditional free speech rights (i.e., the right to
speak, distribute leaflets, etc.) that may be exercised
by Plaintiff and others in the Caddo Parish Courthouse
Square, the Court finds Plaintiff’s First Amendment
claim fails.
V.

Conclusion

For the reasons set forth above, the Court finds
Plaintiff has failed to carry its burden and show
there is an issue of material fact warranting trial.
Accordingly, Defendant’s Motion for Summary Judgment [Doc. No. 88] is GRANTED, and Plaintiff’s
claims are DISMISSED WITH PREJUDICE at Plaintiff’s cost.
MONROE, LOUISIANA, this 25th day of July,
2018.
/s/ Robert G. James
United States District Judge

App.31a
ORDER OF THE UNITED STATES DISTRICT
COURT WESTERN DISTRICT LOUISIANA
GRANTING MOTION TO DISMISS
(DECEMBER 11, 2017)
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF LOUISIANA
SHREVEPORT DIVISION (HELD IN MONROE)
________________________
SHREVEPORT CHAPTER #237 OF THE
UNITED DAUGHTERS OF THE CONFEDERACY,
v.
CADDO PARISH COMMISSION, ET AL.
________________________
Case No. 5:17-CV-01346
Before: Robert G. JAMES, Judge.,
HORNSBY, Magistrate Judge.
PROCEEDINGS
● Hearing on Plaintiff’s Motion for Preliminary
Injunction (Doc. No. 1)
● Testimony received from witnesses listed on
attached witness list.
● Evidence received as listed on attached exhibits
lists.
● Argument received from counsel.
Ruling/Comments
The Motion to Dismiss [Doc. No. 11] filed by the
individual Commissioners is GRANTED.

App.32a
Courts have held that when the government
entity itself is a defendant, claims against entity
members/officers in their official capacities are redundant and appropriate for dismissal. Castro Romero v.
Becken, 256 F.3d 349, 354 (5th Cir. 2001) (“The district court was also correct in dismissing the allegations against all of the municipal officers . . . in their
official capacities, as these allegations duplicate claims
against the respective governmental entities themselves.”); Broussard v. Lafayette City-Parish Consolidated Government, 45 F.Supp.3d 553, 571 (W.D. La.
2014) (“When, as in this case, the government entity
itself is a defendant in the litigation, claims against
specific individuals in their official capacities are
redundant, and . . . it is appropriate to dismiss them.”);
and Glaster v. City of Mansfield, 2015 WL 852412,
*10 (W.D. La. 2015) (same; collecting cases).

Hooker v. Campbell, No. 16-CV-0229, 2016 WL
6892924, at *3 (W.D. La. Sept. 14, 2016), report and
recommendation adopted, No. 16-CV-0229, 2016 WL
6892498 (W.D. La. Nov. 22, 2016).
In this case, the dismissal of the Commissioners
streamlines the litigation and does not prejudice
Plaintiff in the slightest to eliminate the Commissioners in their official capacities as defendants. The
redundant claims are therefore DISMISSED.
The Motion for Preliminary Injunction [Doc. No.
1] is taken under advisement.
Filings:
● Witness List
● Exhibit List

App.33a
ORDER OF THE FIFTH CIRCUIT DENYING
PETITION FOR REHEARING
(APRIL 15, 2019)
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
________________________
SHREVEPORT CHAPTER #237 OF THE
UNITED DAUGHTERS OF THE CONFEDERACY,

Plaintiff-Appellant,
v.
CADDO PARISH COMMISSION,

Defendant-Appellee.

________________________
No. 18-30951

Appeal from the United States District Court
for the Western District of Louisiana
Before: SMITH, WIENER, and
WILLETT, Circuit Judges.
PER CURIAM:
IT IS ORDERED that the petition for rehearing is
denied.
Entered for the Court
/s/ Jacques L. Wiener, Jr
United States Circuit Judge

